<html>
<title> - HELPING REVITALIZE AMERICAN COMMUNITIES THROUGH THE BROWNFIELDS PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



HELPING REVITALIZE AMERICAN COMMUNITIES THROUGH THE BROWNFIELDS PROGRAM

=======================================================================

                                (114-25)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2015

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                                 ________
                       
                       U.S. GOVERNMENT PUBLISHING OFFICE
                
95-581PDF                       WASHINGTON: 2017
  _____________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; DC area (202) 512-1800
            Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001
            





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
TOM RICE, South Carolina             RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
ROB WOODALL, Georgia                 LOIS FRANKEL, Florida
TODD ROKITA, Indiana                 CHERI BUSTOS, Illinois
JOHN KATKO, New York                 JARED HUFFMAN, California
BRIAN BABIN, Texas                   JULIA BROWNLEY, California
CRESENT HARDY, Nevada
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
RODNEY DAVIS, Illinois               SEAN PATRICK MALONEY, New York
MARK SANFORD, South Carolina         ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 ELEANOR HOLMES NORTON, District of 
JOHN KATKO, New York                 Columbia
BRIAN BABIN, Texas                   RICHARD M. NOLAN, Minnesota
CRESENT HARDY, Nevada                PETER A. DeFAZIO, Oregon (Ex 
GARRET GRAVES, Louisiana             Officio)
DAVID ROUZER, North Carolina
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

      
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES
                                Panel 1

Hon. Mathy Stanislaus, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmental Protection 
  Agency:

    Testimony....................................................     5
    Prepared statement...........................................    38
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................    55
        Hon. Grace F. Napolitano of California...................    67

                                Panel 2

Cynthia A. Hafner, Chief Legal Counsel, Ohio Environmental 
  Protection Agency:

    Testimony....................................................    19
    Prepared statement...........................................    73
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................    77
        Hon. Grace F. Napolitano of California...................    80
Hon. J. Christian Bollwage, Mayor of the city of Elizabeth, New 
  Jersey, on behalf of the U.S. Conference of Mayors:

    Testimony....................................................    19
    Prepared statement...........................................    81
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................    89
        Hon. Grace F. Napolitano of California...................    93
Kelley C. Race, P.G., L.S.P., Brownfields Program Manager, TRC 
  Companies, Inc.:

    Testimony....................................................    19
    Prepared statement...........................................    95
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................   104
        Hon. Grace F. Napolitano of California...................   112
Paul Gruber, P.G., on behalf of the National Ground Water 
  Association:

    Testimony....................................................    19
    Prepared statement...........................................   116
    Responses to questions for the record from the following 
      Representatives:

        Hon. Bob Gibbs of Ohio...................................   124
        Hon. Grace F. Napolitano of California...................   128
Vernice Miller-Travis, Vice Chair, Maryland Commission on 
  Environmental Justice and Sustainable Communities, and Member, 
  National Environmental Justice Advisory Council to U.S. EPA:

    Testimony....................................................    19
    Prepared statement...........................................   131

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Janice Hahn of California...................................    36

                       SUBMISSIONS FOR THE RECORD

Letter of July 20, 2015, from Clarence E. Anthony, CEO and 
  Executive Director, National League of Cities, to Chairman Bill 
  Shuster and Ranking Member Peter A. DeFazio, Committee on 
  Transportation and Infrastructure, and Chairman Bob Gibbs and 
  Ranking Member Grace F. Napolitano, Subcommittee on Water 
  Resources and Environment......................................   138
Letter of August 6, 2015, from Michael Forbeck (PA), P.E., 
  President, Association of State and Territorial Solid Waste 
  Management Officials, to Chairman Bob Gibbs, Subcommittee on 
  Water Resources and Environment................................   141
Written statement of Jonathan Philips, Managing Director, Anka 
  Funds..........................................................   144
Written statement of Scott A. Thompson, Executive Director, 
  Oklahoma Department of Environmental Quality...................   163
Questions for the record to Vernice Miller-Travis, Vice Chair, 
  Maryland Commission on Environmental Justice and Sustainable 
  Communities, and Member, National Environmental Justice 
  Advisory Council to U.S. EPA, from the following 
  Representatives:

    Hon. Bob Gibbs of Ohio.......................................   167
    Hon. Grace F. Napolitano of California.......................   170
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
            HELPING REVITALIZE AMERICAN COMMUNITIES 
                 THROUGH THE BROWNFIELDS PROGRAM

                              ----------                              


                        WEDNESDAY, JULY 22, 2015

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The Subcommittee on Water Resources and 
Environment of the full Committee on Transportation and 
Infrastructure will come to order. I want to thank everybody 
for attending today. I know there will be Members in and out. 
There is a lot going on today. I think everybody is trying to 
finish up a lot of loose ends, cross the t's and dot the i's 
here before we go back and meet with our constituents in 
August. Some housekeeping business first. I ask unanimous 
consent that the hearing record be kept open for 30 days after 
this hearing in order to accept written testimony for the 
hearing record. Is there objection? Without objection, so 
ordered.
    I also ask unanimous consent that written testimony 
submitted on behalf of the following parties be included in 
this hearing's record: Scott Thompson, the executive director 
of the Oklahoma Department of Environmental Quality; Clarence 
Anthony, the CEO and executive director of the National League 
of Cities; Jonathan Philips, the managing director of Anka 
Funds; and Congresswoman Janice Hahn from California. Is there 
objection? Hearing none, without objection, so ordered.
    OK. I will open up with my opening remarks. Today, we are 
here to talk about helping revitalize America's communities 
through the Brownfields Program. Following the passage of the 
Comprehensive Environmental Response, Compensation, and 
Liability Act of 1980, also known as Superfund, a new kind of 
property emerged, brownfields. Brownfields are properties where 
contamination was suspected but unknown. These sites include 
inactive factories, gas stations, salvage yards, and many other 
previously used properties where possible environmental 
liability and cleanup standards prevented their continued use 
and redevelopment.
    Fear of environmental liability at these sites caused 
developers to look outside cities to previously undeveloped 
properties for new opportunities. This left many sites 
untouched, driving down property values, contributing to 
blight, and providing no tax revenue to cities. Both the States 
and the EPA [Environmental Protection Agency] began looking for 
ways to more successfully address the concerns of potential 
contamination to get these sites back to productive use.
    In 1995, the EPA issued demonstration grants to help assess 
sites to determine what cleanup might be needed. States, 
cities, and developers also began looking for better ways to 
address these sites. In 2001, Congress created the specific 
authority for dealing with brownfields, the Brownfields 
Revitalization and Environmental Restoration Act of 2001, 
amended the Superfund law, and authorized funding to the EPA to 
provide grants for assessment and cleanup, provided targeted 
liability relief for property owners, and increased Federal 
support for the State and tribal programs that were already 
underway.
    The authorization for brownfield grants under the 
Brownfields Revitalization and Environmental Restoration Act of 
2001 expired at the end of fiscal year 2006, though Congress 
has continued to appropriate funds for the Brownfields Program. 
To say this program has been a success is understating its 
achievements. As of June last year, the EPA and the State and 
tribal programs had assessed more than 21,000 properties, 
completed over 99,450 cleanups, and made more than 900,000 
acres ready for reuse. On average, $17.79 was leveraged for 
every EPA dollar spent in the Brownfields Program. And nearly 
106,000 jobs have been leveraged since the start of the 
program. The benefits of having these sites redeveloped include 
increased property values of between 5 percent and nearly 13 
percent, and measurable environmental benefits, such as fewer 
vehicle miles traveled and decreased stormwater run off.
    To quote a line from our upcoming witness from the Ohio 
EPA, Cindy Hafner, Ohio has been ``blessed with a rich 
industrial history, which resulted in a very large number of 
brownfields that no one wanted to use.'' I know Ohio is not 
alone in its appreciation for this important program. The 
Brownfields Program has been a successful partnership between 
the EPA--I want to stress that, partnership--between the EPA, 
States, communities, investors, and developers. Because it 
applies to so many sites and generates such a high return in 
investment, it is an incredibly popular program throughout the 
country. But like many other good programs, there may be ways 
to make it more effective. And I think this is a good time to 
look at this, since the authorization expired in 2007, it is a 
good time to see what is happening, see what adjustments might 
be needed, and how we can make the programs better, and be more 
successful.
    Today, we will hear from the Honorable Mathy Stanislaus, 
the Assistant Administrator for the Office of Solid Waste and 
Emergency Response at the U.S. EPA. Our second panel, we have 
Ms. Cindy Hafner, the chief legal counsel for the Ohio EPA; the 
Honorable Christian Bollwage, mayor of Elizabeth, New Jersey; 
Ms. Kelley Race, Mr. Paul Gruber, and Ms. Vernice Miller-
Travis. I want to thank the witnesses for taking the time out 
of their schedules to be here today. I now recognize Ranking 
Member Napolitano for any remarks she may have.
    Mrs. Napolitano. Thank you so very much, Chairman Gibbs, 
for holding today's hearing on the status of the EPA's program. 
Welcome to our witnesses again. The EPA's brownfields was 
conceived and initiated as a pilot program, as was indicated by 
my colleague, during the Clinton administration and the fully 
fledged program was enacted during the Bush administration. It 
has proven to be a critical community development tool that 
transforms some, not all, underutilized and potentially 
contaminated sites into productive and useful environments. The 
term ``brownfield'' refers to abandoned and underutilized 
properties where, with expansion or redevelopment, it is 
hampered by either real or perceived environmental 
contamination. They are not Superfund sites, but are properties 
that are former gas stations, dry cleaning establishments, 
warehouses, industrial properties and other things as such 
where the potential stigma of contamination was enough to 
hamper redevelopment. As one can imagine, these types of sites 
are located in almost every community in our country. The 
brownfield signed in 2002 represented a needed and unique 
solution to the challenges facing redevelopment on these sites 
into productive spaces with grants as seed money for assessment 
or cleanup of brownfields, and eases legitimate liability 
concerns of potential developers.
    Benefits are twofold: First, the redevelopment of these 
brownfield sites discourages development of greenfields, which 
would exacerbate the problem of suburban sprawl. Second, 
creating new uses for these otherwise underutilized sites 
reinvigorates the tax base and generates job growth with 
sustainable economic development in the areas surrounding these 
sites. The Brownfields Program has been very successful because 
it facilitated the redevelopment of approximately 49,000 acres 
of land, and created nearly 106,000 jobs. And EPA estimates 
that it has created 7.3 jobs for every $100,000 invested, 
leveraging over $17 of investment for every Federal dollar 
invested.
    It is a highly effective and productive program. And it is 
not surprising that the competition for brownfield grants is 
highly competitive. These results beg the question then: Why 
are we not investing more in redevelopment of brownfield 
spaces? Further, if this is a success rate of an underfunded 
program, imagine the potential economic impact and potential 
for job creation that would come from fully funding this 
program. EPA estimates that over the past 5 years, as my 
colleague has pointed out, funding deficiencies have caused 
1,767 viable programs to go unfunded.
    This is a backlog of $693.6 million worth of projects. 
These sites are not only sitting idle and unproductive, but are 
missing out on the return of investment that these sites could 
realize if these proposals had received the funding. And it is 
estimated the grants would have leveraged approximately 50,600 
jobs and over $12 billion in public and private financing.
    In my world, I call that a missed opportunity. There is an 
area where the Brownfields Program has yet to achieve its goal. 
It is my impression the program was originally created with two 
goals in mind. First, spurring economic redevelopment of 
formerly underutilized and potentially contaminated sites; and, 
secondly, targeted redevelopment of sites located in 
economically distressed communities in particular, which begs 
the question, are we then not looking at areas where we have 
more need? In other words, checking whether or not they really 
are in need of this economic development.
    While the program's success speaks for itself on the first 
mission, I am interested to hear whether or not our witnesses 
feel as though gains are being made on the second mission. Put 
another way, are we doing enough to encourage the redevelopment 
of brownfield sites located in communities throughout the 
country where the market forces may not be as strong? Are there 
ways to make sure the successes of the Brownfields Program can 
be amplified for urban neighborhoods away from city centers or 
rural or smaller communities where redevelopment may need just 
a little more push to get started.
    And I can tell you, Chairman Gibbs, and everybody that 
might be interested, is that there was an EDI and a BEDI [HUD 
Economic Development Initiative and Brownfield Economic 
Development Initiative grants] in my background in Santa Fe 
Springs which created 3,000 jobs, 3,000 jobs with the EDI and 
the BEDI. So does it work? Yes, it works. And I think we need 
to take a longer look in how we can spur more funding into this 
program to make it more available where it is most needed. 
Again, welcome to our witnesses. And thank you, Chairman Gibbs, 
for holding this hearing. And I yield back my time.
    Mr. Gibbs. Thank you. At this time, I want to recognize the 
chairman of the full Committee on Transportation and 
Infrastructure, the gentleman from Pennsylvania, Chairman 
Shuster.
    Mr. Shuster. Thank you, Chairman Gibbs. I appreciate you 
holding this hearing. I think most people who have been around 
here long know that there aren't many times that I give great 
compliments to the EPA. But this is one of those programs that 
has been very beneficial. And I think the EPA has done a good 
job. But we always can do better. When we are dealing with 
these brownfield sites, I know there are hundreds of thousands 
around the country. My home State of Pennsylvania, there are 
thousands and thousands. And we have seen great examples of how 
you can take those brownfield sites and turn them into valuable 
productive pieces of land. As we know, the property values, tax 
revenues, when those are able to be brought back online, things 
improve in the area in general. So we want to continue to view 
these things and work with the EPA. It makes good economic and 
environmental sense to move forward with these.
    And in 2001, we passed legislation, the Small Business 
Liability Relief and Brownfields Revitalization Act. That was 
really the starting point for many of these brownfields to be 
turned back into, as I said, productive pieces of land. And, 
again, we appreciate what the EPA has done. I am not going to 
be here for the second panel of witnesses. But Kelley Race 
spends a lot of time working brownfield issues in Pennsylvania. 
We appreciate you being here with your expertise in helping us 
to move forward. So I thank you and all of our witnesses for 
being here today. I appreciate that. And with that, I yield 
back.
    Mr. Gibbs. I thank the chairman. At this time, I want to 
welcome our first panel, our witness, the Honorable Mathy 
Stanislaus, Assistant Administrator of the Office of Solid 
Waste and Emergency Response at the U.S. EPA. Welcome. And the 
floor is yours.

 TESTIMONY OF HON. MATHY STANISLAUS, ASSISTANT ADMINISTRATOR, 
      OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Stanislaus. Thank you. Good morning, Chairman Gibbs, 
Ranking Member Napolitano, and members of the subcommittee. I 
am Mathy Stanislaus, Assistant Administrator of the Office of 
Solid Waste and Emergency Response. Again, thank you for the 
opportunity to be here today. And really, thank you for your 
recognition of the value and benefit of the program. And we 
welcome this exchange. The brownfield sites are the heart of 
American's downtowns and economic centers. And reclaiming these 
vacant, underutilized properties are a real core to EPA's 
community economic revitalization efforts. Our Brownfields 
Program has been a catalyst for redevelopment, revitalization, 
and really hinges on the success of local partners working 
together to implement the vision of local communities. It 
achieves public health protection by cleaning up these 
properties. It achieves economic development and community 
revitalization. And it addresses social issues like 
unemployment.
    EPA's Brownfields Program provides direct funding to 
communities, States, tribes, and not-for-profits for brownfield 
assessment, cleanup, revolving loans, technical assistance, 
areawide planning, and environmental job training. The 
Brownfields Program is premised on partnerships between the 
public and private sector. The EPA's critical early resources 
provide certainty to leverage funding from other Government 
agencies and the private sector to achieve economic, 
environmental, and social outcomes.
    On average, as recognized earlier, for every dollar EPA 
invests in a community, it leverages about $18 of public and 
private investment. We think, as a model, that works. The 
Brownfields Program is also a key component of the 
administration's effort to advance manufacturing in the United 
States through the investing and manufacturing community 
partnership. It is also a key aspect of the administration's 
work on advancing sustainable communities in partnership with 
HUD [U.S. Department of Housing and Urban Development] and DOT 
[U.S. Department of Transportation]. As recognized earlier, the 
Brownfields Program grantees for fiscal year 2014 are projected 
to assess more than 1,300 properties, and clean up more than 
120 properties, leverage about $1.1 billion in cleanup and 
redevelopment, and create at least 5,000 jobs in communities 
across the country.
    Additionally, EPA's research has shown that redeveloping a 
brownfield site, rather than a greenfield site, has 
significant, environmental, and public health benefits, 
including reducing vehicle miles travel, reducing emissions by 
32 to 57 percent, and reducing stormwater runoff estimated by 
47 to 62 percent. It also reduces the infrastructure investment 
necessary to promote economic revitalization. Over many years, 
the Brownfields Program implementation has taught us that it is 
a real model for successful projects. And it is a real model 
for maximizing limited Federal dollars to really achieve local 
outcomes. And that occurs, again, through public-private 
partnerships and leveraging the limited Federal dollars to 
State, local, and private investment.
    The job training program is highly successful. We have a 
70-percent hiring rate. It is really targeted in areas of high 
unemployment. And it is a multiskill, multicertificate program. 
Over the years, we have heard from stakeholders lots of things 
about the Brownfields Program, how it can be improved. One of 
the issues that we have heard is whether we should consider 
increasing the size of the cleanup grants. We actually think 
that it could have the unintended impact of actually reducing 
the total number of communities that receive grants, and 
actually, potentially get in the way of this good model of 
leveraging EPA dollars with local and private dollars.
    We have also heard some focus on particular kinds of end 
uses. And we actually think that it should be the community to 
decide the end use that works for them and for us to administer 
a nationally competitive process that looks at the key factors 
of additional resources, strong local partners, and a real plan 
to really implement that rather than the Federal Government 
determining what uses are best, be it waterfront, 
manufacturing, or housing kind of issues. The Brownfields 
Program also provides on a noncompetitive basis tremendous 
resources for State and tribal programs to build and administer 
a cleanup program. As you all know, the cleanup side of the 
Brownfields Program is largely administered by States and 
tribes, as really critical resources to States to administer 
that program.
    Now, a critical aspect of what EPA provides is, as 
technical assistance, is really critical, particularly for 
communities with limited capacity. And we believe that has been 
really successful in the real spread of communities receiving 
grants. So in the last grant cycle, 56 percent of communities 
under 100,000 population receive our grants. And 24 percent of 
communities under 10,000 receive our grants. With that, I will 
close. I am out of time. I look forward to your questions.
    Mr. Gibbs. Thank you. I will lead off here. First of all, I 
like your comment about the communities deciding what the end 
use is going to be. That is better, I always believe they know 
what is best in their local communities. So I am glad to see 
the U.S. EPA recognizes that. I am curious, approximately how 
many applications each year do you get? And how do you make the 
decisions which sites get it? And has it become more 
competitive? Is it a competitive process?
    Mr. Stanislaus. Yes, I can get you the specific numbers 
over the years. But in terms of how many we actually award, 
about a third of the applicants that we award every year. And 
how we make determinations, it is a national competition based 
on criteria that we establish the basic elements of a project, 
how far in advance the project is, what kind of leveraging 
other resources. Because ultimately we want to make sure that 
these projects are successful.
    Mr. Gibbs. And, I think, to go along with that, if you can 
get us the information later on. But how many brownfield sites 
since the program has been in use have been cleaned up and put 
in new use? And of that, how many was the U.S. EPA involved in 
versus the States doing it all, you know, how that works?
    Mr. Stanislaus. Sure. We can provide information regarding 
where EPA has invested in projects, as well as through States 
and State resources where States have invested in cleanups.
    Mr. Gibbs. I am curious about administrative costs. This 
program, how does it compare to other programs within the EPA 
for administrative costs?
    Mr. Stanislaus. The comparison to other programs, I don't 
have that in front of me. Again, I can get that to you.
    Mr. Gibbs. OK. Do you expect it is higher or lower?
    Mr. Stanislaus. I think it is a model program. I think it 
is a lean program.
    Mr. Gibbs. Yesterday, the EPA's inspector general released 
findings that some sites which had been cleared by the EPA, 
regions 4 and 6, for redevelopment may still contain levels of 
toxic substances above public health standards. Can you please 
explain how your office plans to handle this report?
    Mr. Stanislaus. Yes. I need to take a look at the details 
of that report. But cleanups, in any redevelopment of a site, 
in some cases, may require a complete cleanup of contaminants. 
Some places leave the contaminants in place with effective 
engineering and institutional controls. A lot of that is 
administered through the State programs. So we will look at the 
details of that report. We completely are in support of, we 
want to make sure these cleanups are protected, while also 
advancing redevelopment.
    Mr. Gibbs. Personally, I didn't see the report, but I know 
that the two regions, that they cleared it for redevelopment. 
And, obviously, according to the IG [inspector general] anyway, 
there are toxic substances still there. So that is something we 
really need to address to make sure that our processes and our 
end processes are adequate so we don't have problems down the 
road, especially for a new owner.
    Mr. Stanislaus. There are many successful projects where 
contaminants continue to be in the ground, but it is still 
protective. And if you have effective engineering mechanisms, 
effective legal mechanisms, it can still be protective while 
the contaminants are left in place.
    Mr. Gibbs. OK. One thing I know that was in the original 
authorization is a 25-percent set-aside for petroleum, i.e., 
abandoned gas tanks. And I think through this, you know, over 
the years, it used to be, if you were in an urban area, it 
seemed like almost every intersection, on three of the four 
corners there would be a gas station. Now, that is not the case 
anymore. So we have gone through a lot of cleanup. The 25-
percent set-aside, is that still needed, or is that causing 
problems for you when you only have so many dollars to work 
with? But if you have to allocate 25 percent to an earmark, 
essentially, I am assuming we have made a lot of progress, the 
program is working, that should be a declining set-aside 
percentage. What are your thoughts on that?
    Mr. Stanislaus. Actually, we have suggested elimination of 
that provision. Because I think the administration of that 
provision really requires upfront dividing----
    Mr. Gibbs. Wait. Did you say you suggested eliminating the 
25 percent?
    Mr. Stanislaus. That provision, that 25-percent provision. 
Because what that does is it, in a sense, requires us to set 
aside 25 percent. And what we prefer is a consistent national 
competition among all sites, and all sites should compete in 
the same way, whether it is petroleum or hazardous substances 
and all the other elements.
    Mr. Gibbs. I agree. The reason we are having this hearing 
today is see what we need to do to make this program better. 
Briefly here, do you have any other ideas or suggestions where 
you see, if we are looking at a reauthorization bill, that we 
should be----
    Mr. Stanislaus. Well, a couple--administrative costs have 
clearly been raised. Particularly by smaller applicants, it 
continues to be a burden. And the current legal prohibition of 
administrative costs, I think, has been raised by grantees to 
us. Extending the not-for-profit eligibility for also 
assessments. Not-for-profits play a real strong role with local 
governments, like the housing organizations. And so right now, 
they are ineligible. Those are the things that immediately come 
to mind. But we can provide broader technical assistance to 
you.
    Mr. Gibbs. I am out of time. I do have one question I do 
want to get to before I move on. The small business liability 
protection, liability protection in general, how do you see 
that? Has that been working well? Or are there problems we 
should be addressing with that?
    Mr. Stanislaus. Well, yes, I think the law does provide the 
acquisition, be it voluntary, involuntary, and the kind of due 
diligence. I know that looking at the testimony of the National 
League of Cities, there, potentially, is either a concern about 
a perception or reality in terms of how do we make sure we 
protect from liability. We have done a lot of things in this 
way. For example, we have heard from lessees, particularly, a 
number of projects rely on lease arrangements, not fee simple 
arrangements. So we issued a guidance to make clear that a 
lessee would fall into the same shoes as an owner. But I think 
there is more, we want to engage more with, be it the National 
League of Cities or other kind of local mayors and communities 
on this issue.
    Mr. Gibbs. Thank you. Next, to Mrs. Napolitano for any 
questions you may have.
    Mrs. Napolitano. Thank you, sir. Administrator Stanislaus, 
on the topic of liability, there are some that would claim that 
local governments are left unprotected by CERCLA's 
[Comprehensive Environmental Response, Compensation, and 
Liability Act of 1980] liabilities defenses and exemptions due 
to how they acquire the site. Even properties acquired through 
tax delinquency may not be exempt if local government took 
voluntary steps in a tax delinquency process. However, has EPA 
taken action to address this over the years, or have you come 
up with some remedy for this? And if so, what specifically has 
been taken? What actions has EPA taken to ensure that these 
procedures, protections, rather, do not have the chilling 
effect on some of the groups they warn of?
    Mr. Stanislaus. We have taken the liability protections set 
forth in the brownfield law, and provided for the guidance of 
that and provide clarity, that a municipality can acquire, 
either voluntarily or involuntarily, as long as they do certain 
kinds of due diligence actions. We also understand that there 
may be a need for more to provide that certainty. Because none 
of us want properties to be lying idle, even for the perception 
of liability. So we welcome further engagement with you all, as 
well as communities around the country of what more we can do 
to, one, better communicate how they can protect themselves 
from liability, but if there is more that we can do.
    Mrs. Napolitano. Sir, do you communicate that with either 
the Conference of Mayors or the Governors associations so that 
they understand that this is something you have been 
addressing, and somehow, some of the smaller communities that 
have no way of being able to further look into the issue may be 
able to garner information to help themselves?
    Mr. Stanislaus. Absolutely. In fact, in September, I 
invited all the members to attend, we are having a brownfields 
conference. And one of the things that a number of communities 
around the country are going to explain how they manage 
liability, how they have been able to underwrite projects----
    Mrs. Napolitano. Is this going to be live-streamed?
    Mr. Stanislaus. I don't know. I will check on that.
    Mrs. Napolitano. We need to be able to get all this 
information. See, everybody thinks that local governments know 
what is happening here or what the Agency's rules may have now 
encompassed into helping them. But if we don't get that 
information to them, we are not able then to get enough 
information from them how we can help develop the brownfields 
into productive land.
    Mr. Stanislaus. OK.
    Mrs. Napolitano. I look forward to working with you on 
that, sir.
    Mr. Stanislaus. Sure.
    Mrs. Napolitano. Then, one witness who will be testifying 
in our second panel indicates we must refocus our efforts in 
the hope of the successful brownfields redevelopment, what it 
does to broad-based economic opportunity and community 
revitalization, especially those in the bottom of our economic 
strata, in other words, our poorer areas. So what is EPA doing 
to ensure that these underserved communities receive their fair 
share? Not only that if they are not successful in the first 
round, and they should be able to reapply, do you tell them how 
to better their ability to be successful in the second round?
    Mr. Stanislaus. Sure. We put in place a broad technical 
assistance program for that reason. Because we have heard from 
smaller communities, distressed communities, the issue of how 
to best put together an application. So we do direct outreach. 
But we are prevented----
    Mrs. Napolitano. How direct, sir? How direct? Because, 
again, I go back to being able to ensure that they have the 
ability to know where to find that information, whether it is 
through some of their organizations, the county governments, et 
cetera. That is the issue I am trying to get across is getting 
more openness to this process.
    Mr. Stanislaus. Everything from engaging, be it the 
National League of Cities or the Conference of Mayors and local 
community groups, but we also, through our technical 
assistance, provide and conduct workshops around the country. 
And we also, in some of our contract vehicles, enable direct 
assistance to actually prepare applications. We can provide 
that direct assistance by providing grants to others to help 
them. So we think that is going a long way of dealing with this 
issue. But we hear from a lot of small towns that from budget 
constraints, that they may not have staff on board to really 
follow these opportunities. So we completely agree that we need 
to really invest in that technical assistance for smaller 
communities.
    Mrs. Napolitano. Again, sir, I would love to be able to 
ensure that we able to put this in the hands of everybody that 
would want to patch in, if you will, to any of the online 
discussion. Then the other area was, and I think you just 
touched on that, that there are areas where DOT helps out in 
the Brownfields Program and some other agencies. Is there a way 
to be able to get that information to us and to--well, we can 
disseminate to our areas, but we need to know who the other 
partners are besides the local government, your county 
government, and your private parties.
    Mr. Stanislaus. Yes. Sure. I will get that to you. I will 
give you one example of working with DOT. We have something 
called the Areawide Planning Program, which really was a tool 
designed for communities that have broad economic distress, to 
be able to conduct infrastructure studies, market studies, and 
planning studies. Based on that, DOT has built within its 
program some preferential points for communities who have done 
that local planning effort. That is one of the areas that we 
are collaborating with DOT.
    Mrs. Napolitano. Great. That would be something I would 
love to see. And I hope that you can get a copy to this 
subcommittee. Thank you, sir. I yield back.
    Mr. Gibbs. Mr. Rokita.
    Mr. Rokita. I thank the chair. Good morning, Mr. 
Stanislaus. I appreciate your presentation. I mostly now 
represent a suburban and rural district with some cities in it. 
This is really my first exposure to brownfields, not only since 
being on the committee, but since being in Congress. I didn't 
have much experience when I was secretary of state with 
brownfields. So bear with me. But it seems like the myth is 
that brownfields are an urban situation. Are there situations 
where brownfields exist in rural areas or suburban areas? What 
might that look like for me?
    Mr. Stanislaus. Absolutely. It is one of the reasons, I am 
trying to remember the statistics, about 56 percent of 
communities less than 100,000, and 24 percent less than 10,000, 
so in smaller rural communities, it could be the former ag 
processing facility, it could be a former petroleum-related 
facility. In some cases, it could be that former, one big 
manufacturing facility that that community was built around. So 
it kind of runs the gamut of the prior uses.
    Mr. Rokita. OK. Got it. Thank you. Regarding non-owners 
that might be occupying the land that was a brownfield or is a 
brownfield: Is there a Superfund liability of some sort, and 
does that liability extend to tenants or other non-owners? How 
does that work? How do we ensure that the non-owners are 
secured or protected from liability?
    Mr. Stanislaus. If you are asking in a scenario of an 
existing contaminated site and a lessee wanted to redevelop the 
site and not have liability?
    Mr. Rokita. Yes.
    Mr. Stanislaus. We have actually issued guidelines to make 
clear that the lessee will be protected from liability as long 
as they follow the same steps as an owner would in terms of due 
diligence.
    Mr. Rokita. OK. Then the flip side of that question: How do 
you protect against exposure risk to tenants?
    Mr. Stanislaus. From the contaminants themselves?
    Mr. Rokita. Yes.
    Mr. Stanislaus. Well, yes, the program is built on, EPA 
administers the grant program. But the cleanup side is almost 
exclusively administered by State cleanup programs which are 
very effective.
    Mr. Rokita. OK. Now, if I understand this right, we have 
brownfield assessments. Your data suggests that the assessments 
of brownfields find little or no contamination when the 
assessment is done. Do you agree or disagree with that?
    Mr. Stanislaus. No, I think the universe, a certain 
segment, as was noted earlier, of brownfields are abandoned, 
underutilized, either because there is real contamination or a 
perception of contamination, because it could have a former 
use. So when you go into a site, you may discover that actually 
you don't have contaminants on the site. You can move forward 
on redevelopment.
    Mr. Rokita. Right.
    Mr. Stanislaus. In other cases, you identify, yes, there is 
some contamination. And then you develop----
    Mr. Rokita. What is the percentage breakdown?
    Mr. Stanislaus. I can get that to you. It may be in my 
testimony. But I will get that to you. I don't have that 
available.
    Mr. Rokita. Let's assume it is not in your testimony. If it 
is not, can you get it to me in 2 weeks?
    Mr. Stanislaus. Sure. No problem.
    Mr. Rokita. Is that fair enough?
    Mr. Stanislaus. Yes.
    Mr. Rokita. Two weeks?
    Mr. Stanislaus. Yes. No problem.
    Mr. Rokita. OK. So should we be funding the assessment side 
of things, assuming a good number of these assessments find no 
contaminations? I am looking for certainty and increasing 
property values. If we are finding that a lot of these 
assessments, and I don't know the percentage but we are going 
to find out, find no contamination, maybe we need to change the 
definition of brownfield. Is the brownfield definition too 
strict?
    Mr. Stanislaus. Really, I view the assessment as a key 
component of a financial transaction. What assessments would 
do, whether you find contamination or you don't, really enables 
the financial underwriting of a project.
    Mr. Rokita. Right.
    Mr. Stanislaus. So having done underwriting before I got 
here, you know, does a site have contamination, then you can 
immediately go to underwriting. If it has contamination, how do 
you wall off and then estimate that cleanup of contamination. 
And then you can build it into project financing. So it is a 
real critical component of addressing uncertainty to enable 
projects to move forward.
    Mr. Rokita. If that is the case, regardless of what 
percentage of assessments we find with no contamination, should 
we front-load? I am not saying new funding or new money, but 
should we take some of your funding and use more of it for 
assessments?
    Mr. Stanislaus. Well, you know, over the years, in working 
with stakeholders, we think we have struck a balance between 
the right proportion of assessments and the cleanup grants. It 
is kind of driven by how many applicants we get for the 
assessment. It is kind of driven by need, given our fixed 
resources and how we break it up between assessment and 
cleanup.
    Mr. Rokita. Great. I see I am out of time, Chairman. But I 
just want to say for the record that you, indeed, put it in 
your testimony, and 20 percent of the properties assessed show 
little or no contamination.
    Mr. Stanislaus. That is right.
    Mr. Rokita. Thank you, Chairman.
    Mr. Gibbs. Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman, for holding today's 
important hearing. Thank you, Ranking Member Napolitano. And 
thank you, Administrator Stanislaus, for joining us again 
today. It is great to see you. This is a really important 
issue. I represent central and northwest Connecticut, which is 
full of brownfield sites, a few Superfund, but, frankly, a lot 
of brownfield sites. So this is of critical importance to us to 
both preserve open spaces, which I am glad you mentioned, as 
well as ensuring we get these properties back into productive 
play for our communities.
    It is an important part of revitalizing. So I want to give 
you two examples of how importance this is. We have--Naugatuck 
Valley Community College received a grant for one of the 
training programs. It had tremendous success, have trained a 
lot of young, and not as young, people to enter into the 
workforce and are helping to clean up sites. And this is a 
vitally important part of the program, and I am glad you 
flagged that.
    My city of Meriden just recently won a $200,000 award, 
again, to do assessment. And it is going to be part of an 
important downtown revitalization. And I want to also salute 
you for mentioning the critical importance of this to the 
administration's and, frankly, the country's commitment to 
manufacturing. Many of our communities in the Northeast, as 
well as the Midwest, as well as Ohio, Indiana, are full of 
former brownfield sites. And it is vitally important if we are 
going to reinvigorate the manufacturing sector to take 
seriously our commitment to these communities that helped drive 
the last century's economic development.
    We need to look, I think, at the nonprofit sector. You 
mentioned that in passing. And I would like to explore that a 
little bit more with you. For example, in my largest city of 
Waterbury, there is a nonprofit called Brass City Harvest. They 
want to address the nutritional needs of the community, help 
put people to work, and, frankly, help teach STEM [science, 
technology, engineering, and mathematics] education to young 
people. It is a wonderful program. But as a nonprofit, they are 
not eligible for some of these programs. Can you talk a little 
bit about what the Agency is looking at in this, how important 
they think that might be? Thank you.
    Mr. Stanislaus. We have heard from numerous not-for-
profits, those that would like to get, particularly this is 
applicable to assessment grants, they are currently ineligible. 
So everything from housing developers that are the extension of 
local government to construct affordable housing, to various 
kinds of manufacturing, not-for-profits locally, they would 
like these assessment grants to really, again, extend the arm 
of local government. I think it was an inadvertent division 
between cleanup and assessment. So you have not-for-profits 
eligible for cleanup, but they don't have the ability to get 
the upfront assessment resources to identify sites, whether 
they are or are not contaminated.
    Ms. Esty. And I can tell you our nonprofits have a great 
deal of trouble coming up with the funds as it is. So to come 
up with the funds for an assessment to even determine whether 
this is feasible is a real barrier. It may not seem like a lot 
of money. But to them it is. Is this an area where you believe 
Congress, congressional action would facilitate or, frankly, be 
necessary in order for the Agency to include nonprofits?
    Mr. Stanislaus. Yes. Again, as we have heard from the 
stakeholders, because the statute prohibits not-for-profits 
from being eligible, it would require congressional action.
    Ms. Esty. Next, I wanted to follow up on your remarks a 
little bit. We know there is a Senate proposal out there that 
cordons off some areas of funding and sets them aside. Could 
you talk a little bit more about whether you think that is a 
good route, are there unintended consequences that could come 
from an understandable and laudable attempt to ensure that 
certain areas get more attention?
    Mr. Stanislaus. Yes. Again, I think that it should be up to 
the community at the right time to determine end uses. A lot of 
times, viable end uses really come in the middle of that 
process. Once you have done assessment, you can quantify the 
cost of cleanup, you can figure out what is financially viable 
at that site, among a suite of uses. So if we divide the pot 
upfront, essentially you are putting the Federal Government in 
the position of judging an end use, which we don't believe is 
the right place for the Federal Government.
    Rather, we would rather have--let's just look at is the 
applicant competent? Have they demonstrated competency? Have 
they demonstrated partnership? Additional leveraging resources, 
will the end, ultimate shared end result of making a project 
happen, whatever those end uses may be that the community 
selects.
    Ms. Esty. And if I may, it ties into, you mentioned in your 
written testimony about multipurpose grants. Could you tell us 
a little bit more about what you discovered on that?
    Mr. Stanislaus. Sure. This really emerged from comments 
that we received from communities, the opportunities to 
possibly look at both assessment and cleanup grants together. 
We think that we want to continue to pursue that. We have 
authority, existing authority to do that. We are still looking 
at what is the best fit of mixing a number of uses in one 
grant. I think what we are trying to do is balance flexibility 
for the applicant versus if you have money that is laid out for 
extended periods of time, then it may not be the best use of 
money.
    So we are trying to figure out giving flexibility for 
multipurposes, but making sure it is structured in a way that 
is accountable as well.
    Ms. Esty. Thank you. And I see my time has expired. Thank 
you very much.
    Mr. Gibbs. Mr. Katko.
    Mr. Katko. Thank you very much. I am from Syracuse, New 
York. That is my district. And we have had a tremendous amount 
of experience with brownfields and Superfund sites. As a matter 
of fact, Onondaga Lake, which is adjacent to the city of 
Syracuse, is, perhaps, one of the largest Superfund sites in 
the country. And it is reprehensible what previous industry did 
to the lake. But now, we are enjoying a renaissance of that 
lake that is truly amazing. So I really believe in 
environmental revitalization with the help of Government when 
it is appropriate.
    Along the lake, in addition to what is going on with the 
lake itself, the property along the eastern shore of the lake 
has enjoyed some renaissance as well. One site where there was 
a very large metal scrapyard with all kinds of contaminants has 
now become one of the largest malls in the United States, a 
very successful mall that employs 4,000 people. So the program 
does work when properly applied. But that being said, I want to 
throw a little fact pattern at you so I can properly understand 
your portion of the brownfield revitalization.
    There is a company that just up and pulled out of Syracuse, 
Roth Steel, that operated on the shores of Onondaga Lake for 
over 80 years, I believe. And they went bankrupt. They are 
gone. And they left behind a scrapyard that probably has a 
stunningly high amount of PCB [polychlorinated biphenyl] 
contaminants in the soils. Now, this property is on the shore 
of Onondaga Lake, the shore of a Superfund site. And now local 
authorities are now trying to figure out what the heck to do 
with this place.
    One of the problems is the unbelievable contamination. A 
good citizen and a good member of our community bought the 
property not knowing how badly it was contaminated and promptly 
had to get rid of it because he realized he couldn't do 
anything with it. And so another steel manufacturer, a steel 
company, scrapyard bought it. But I am not sure that is going 
to work. There is some contemplation about taking the property 
by the county.
    So with that fact pattern, that being adjacent to a 
brownfield site, on the shores of it, there is some concern of 
possible leakage into the lake. And after all the hundreds of 
millions of dollars that have been spent by industry, and by 
the Government to clean up that lake and to fix it, we now have 
this problem. The company is gone. So I don't know what 
liability there is going to be to that company. It is bankrupt. 
But what can we do with your program for this site, assuming 
that the county takes it over? And maybe look at both sides, 
whether the county takes it over and whether it doesn't, 
whether somebody else takes it over. What is available to make 
this site, and stop it from leaking into the lake, and 
poisoning what is becoming a great place. And I will note 
today, I just looked online, a bunch of local leaders, to prove 
the lake is good, all went swimming in it today. We don't want 
to have to have them go swimming in PCBs. So what can we do?
    Mr. Stanislaus. I would break my answer to a short-term 
addressing the risk that you identified and a long-term cleanup 
and redevelopment. So separate from the Brownfields Program, 
and you have the Superfund program, and so we have resources, 
if there is imminent risk, we can conduct what is called a 
removal action to deal with imminent risk. So if there is 
ongoing migration of PCBs, give me the information and we will 
work with our regional office on that.
    Mr. Katko. It is Roth Steel on Hiawatha Boulevard in 
Syracuse.
    Mr. Stanislaus. OK. So assuming that we have dealt with the 
imminent risk issue, then the longer term strategy is to really 
figure out what is the extent of contamination, how can we 
quantify the cleanup, and what are the redevelopment uses. That 
is going to drive what cleanups and, obviously, the 
redevelopment. So we have site assessment grants that the 
county or the municipality can access. We also have in 
certain--it is really designed for individual sites, mostly for 
communities that have struggled to participate in the grant 
competition, we have a contract base assistance for going in 
and actually conducting assessments on sites. So we have a set 
of tools that are potentially available.
    Mr. Katko. How quickly, if you believe there is an imminent 
risk, how quickly can we get that moving?
    Mr. Stanislaus. Well, I mean, I will connect with my staff 
and connect with the regional office. And if I can get a point 
of contact, we need to figure out is there an imminent risk and 
then the action necessary. But we could do that in a relatively 
short time period. I am not sure exactly that time period. But 
we can initiate the examination of that relatively soon.
    Mr. Katko. Great. I will make sure my office contacts 
yours. And we can get that moving. I appreciate it. These are 
the types of things that communities like Syracuse, New York, 
that are recovering from the mass exodus of manufacturing over 
the last 20 years, revitalizing those neighborhoods and 
revitalizing those areas. I agree with my colleague, Ms. Esty, 
we absolutely have to get manufacturing back in New York State 
and the Northeast. And I believe we can do that. But in the 
meantime, we have got to take care of the sites that some 
manufacturers and businesses left a mess. Whether there is 
liability to those companies on road I think is a separate 
issue. We have got to get these places cleaned up. And we can't 
ruin what is becoming a gem for central New York and Onondaga 
Lake. So thank you very much.
    Mr. Stanislaus. Thank you.
    Mr. Gibbs. Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. And welcome, thanks 
for your testimony, Mr. Stanislaus. I have seen the value of 
this Brownfields Program in my district in the North Coast of 
California. Among many examples, I have an Indian tribe in a 
very rural part of the far northern end of my district, the Elk 
Valley Rancheria, they have used Brownfields Program funding to 
redevelop a couple of abandoned motels that were highly 
contaminated with asbestos. And they are turning those into 
really important economic development projects. So thank you 
for that. An even better example is in another rural part of my 
district, Humboldt County, where at the height of the timber 
industry, there was a pulp mill on a spit of land called Samoa, 
with the pristine Pacific Ocean on one side, and the pristine 
Humboldt Bay on the other side. It was abandoned. The Chinese 
company that came to own it at one point basically walked away 
from it, leaving all sorts of toxic chemicals in place and 
leaking tanks.
    And we discovered that millions of gallons of highly toxic 
pulping liquors were leaking right as we went into the 
Government shutdown a couple of years ago. And I really want to 
thank your agency, because that would seem like the worst 
possible time for a Member of Congress to have a crisis like 
that, right in the tsunami zone, could have been one of the 
worst toxic incidents in the country if something had gone 
wrong. And EPA leapt into action with other local government 
partners and we got that site cleaned up, despite the shutdown 
that definitely complicated that effort. So you are doing 
terrific work. And I am very grateful to your program and your 
agency.
    I wanted to ask you about a problem, a very vexing problem 
in my district and throughout the West and that is trespass 
marijuana grows. These are illegal activities that are 
happening more and more on public lands. I have seen these 
sites in wilderness areas. And the level of pollution and 
environmental destruction is quite significant with 
rodenticides and highly concentrated fertilizers and just about 
every terrible practice you can imagine in very sensitive, 
pristine areas.
    We can interdict and shut down these sites. But we don't 
have funding in most cases to actually clean them up. And so I 
wanted to ask you if you had given any thought about that, 
about how folks who are affected by this on public lands 
throughout the West may be able to work with EPA and the 
Superfund program. Congress did definitely highlight controlled 
substances as a source of pollution for this program. But I 
wanted to hear your thoughts. And also, whether there are steps 
that communities like the ones I represent should be taking to 
better access those funds?
    Mr. Stanislaus. I have not thought about this marijuana 
problem. There have been other situations where drug production 
has resulted in contamination. In some cases, we have used the 
Superfund program to go in and conduct cleanup. In other cases, 
we provided resources to communities to conduct site assessment 
or cleanup. And we could follow up. We have also worked with 
law enforcement where there is some opportunity in the proceeds 
from an enforcement action that they may take to bring that 
back into local communities. But we can talk more.
    Mr. Huffman. I would love to work with you more on that. 
And then my second, and probably last question involves the 
California drought. And you know that we are in the fourth year 
of a critical drought. We have entire communities in southern 
California that have lost wells and lost drinking water 
supplies because of contamination from perchlorate or, in some 
cases, nitrates and other pollutants. The Superfund program has 
provided some benefits, the Brownfields Program as well.
    But I often hear from stakeholders that cleaning up 
contaminated aquifers, getting them back into the drinking 
water supply is sometimes an afterthought. And with this 
critical drought forcing us to value every possible source of 
potable water that could be brought online and be part of the 
solution to get us through it, I wonder if you have any 
thoughts on how your program might be better leveraged to 
stretch our drinking water supplies in places like that?
    Mr. Stanislaus. It is really more the Superfund program 
rather than the Brownfields Program. And we fundamentally 
believe that we should protect and restore drinking water 
sources. I don't think at all that it is an afterthought. 
Although cleaning up aquifers are very tough and takes a longer 
period of time, it is just the technical nature of cleaning up 
groundwater aquifers. On the brownfield side, there are 
opportunities to prevent contamination of groundwater. One of 
the things we have done is try to link up things like green 
infrastructure, things like preventative measures to prevent 
further contamination as part of the footprint of a new 
project.
    Mr. Huffman. All right. Thank you. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Nolan.
    Mr. Nolan. Thank you, Mr. Chairman. And thank you, Mr. 
Stanislaus, for being here and all the important good work that 
you do. As some of the other members have indicated, we often 
see, you know, the benefits of a particular program at a 
specific level, hopefully, within our own districts. And then 
we try to draw some larger conclusions from that. We have had 
several projects in Duluth, Minnesota, which is in my district, 
Canal Park Brewing site, and the Clyde Iron Works, both of 
which were funded by the Brownfields Program. But they ended up 
stimulating and leveraging State investment, city investment, 
private, for-profit investment, nonprofit investment, creating 
businesses and restaurants and retail and recreational 
facilities, hockey rinks, which are a big deal up in our area.
    My grandkids happen to play frequently at the Clyde Iron 
Works Hockey Arena. And they really create a lot of good jobs, 
a lot of good business activities, help to revitalize important 
neighborhoods. My point in bringing all that up is that 
clearly, in our case, the brownfield investments by the Federal 
Government have stimulated a tremendous amount of additional 
investment that has been so important for the development of 
those communities and the businesses and the jobs that flow 
from that.
    My question is twofold. One is, have you attempted to 
quantify the amount of investment that flows from a brownfield 
investment, the investment made by the other entities that I 
just cited? And if so, you know, what is that amount? And then, 
secondly, how many worthy brownfield projects have you had to 
look at and reject for lack of funding? Those would be my two 
questions. Thank you.
    Mr. Stanislaus. Sure. So of the applicants, over the past 5 
years, a little over 1,700 viable projects that we scored 
highly but were not selected because of limited funding. Again, 
these are highly qualified projects that if we had funding we 
think would result in a lot of the outcomes that you are 
talking about.
    In terms of quantifying the additional investment, our 1-
for-18 ratio, for every $1 we invest, $18 is other investment, 
is information that we have collected from the applicants based 
on reporting to us, based on the various kinds of mix of 
funding. We also have done studies about real estate values 
adjacent to these properties. And it was cited earlier, we see 
real estate values increasing, I think, in the range of about 
10 percent or so. We are also conducting a study of local tax 
revenue from the site and associated sites. So there is a 
stimulative effect as you noted. It is not just the project 
itself, but the stimulative effect of that anchor project which 
then attracts other kinds of investments. We are in the midst 
of quantifying that as well.
    Mr. Nolan. OK. Thank you. That is important. And it 
continues to have an even ongoing effect. Once you clean up a 
site and you stimulate all that investment around it, why, it 
remains forever an inducement to other business activities to 
gravitate toward that site. So I applaud you for the good job 
you are doing administering that program. And I look forward to 
working with you and my colleagues here to see what we can do 
to expand the tremendous benefits that flow from this program, 
both in terms of cleaning up our environment and the messes we 
have made in the past, and then moving us forward with good 
jobs, good communities, good neighborhoods and community 
development activities. Thank you very much.
    Mr. Stanislaus. Thank you.
    Mr. Gibbs. That concludes all our questions. I do have a 
request. It is a simple request really. I know my ranking 
member is going to ask some more questions in writing to you, 
and any response, give back to the full committee, so we will 
keep it so everybody knows what is going on and gets what they 
requested.
    I appreciate that and I appreciate you coming in today, and 
you are excused, and we will bring up panel number two.
    While panel number two is coming up, I do want to recognize 
a young gentleman who is going to be leaving the committee. 
Tracy Zea, hold your hand up. He's been here, in his tenure he 
has worked with the Subcommittee on Water Resources and 
Environment. He's been a great asset to the subcommittee and 
the full committee. I personally want to wish him well in new 
endeavors.
    Am I allowed to say who it is? Waterways Council. I am sure 
we will have a lot of interaction in the future and input, but 
I wish him well in his new endeavors and new challenges as he 
grows in his professional career.
    So, Tracy, thank you very much for all you have done here 
for us, thank you.
    Take a moment here for our panelists to get situated. We 
are ready. I want to thank you all for being here and taking 
time out of your busy schedules to come here and talk about 
something I know is near and dear to your heart, and it is 
important.
    Our first witness is Ms. Cindy Hafner. She is the chief 
legal counsel of the Ohio Environmental Protection Agency out 
of Columbus.
    Welcome, Ms. Hafner, the floor is yours.

   TESTIMONY OF CYNTHIA A. HAFNER, CHIEF LEGAL COUNSEL, OHIO 
 ENVIRONMENTAL PROTECTION AGENCY; HON. J. CHRISTIAN BOLLWAGE, 
 MAYOR OF THE CITY OF ELIZABETH, NEW JERSEY, ON BEHALF OF THE 
   U.S. CONFERENCE OF MAYORS; KELLEY C. RACE, P.G., L.S.P., 
BROWNFIELDS PROGRAM MANAGER, TRC COMPANIES, INC.; PAUL GRUBER, 
 P.G., ON BEHALF OF THE NATIONAL GROUND WATER ASSOCIATION; AND 
   VERNICE MILLER-TRAVIS, VICE CHAIR, MARYLAND COMMISSION ON 
ENVIRONMENTAL JUSTICE AND SUSTAINABLE COMMUNITIES, AND MEMBER, 
  NATIONAL ENVIRONMENTAL JUSTICE ADVISORY COUNCIL TO U.S. EPA

    Ms. Hafner. Chairman Gibbs and members of the subcommittee, 
I really appreciate you inviting me here today to talk about 
Ohio's successful Brownfields Program. I am Cindy Hafner, and I 
am chief legal counsel for the Ohio EPA.
    Today I want to talk a little bit about our voluntary 
cleanup program that was designed to clean up brownfields. I 
will tell you a little bit about how we use the Superfund 
grants for brownfields in Ohio and about the State funding that 
we use for brownfields in Ohio.
    In 1994, the Ohio General Assembly and Governor George 
Voinovich passed a law that created a voluntary cleanup 
program. It was designed to address the universe of 
contaminated sites that weren't being addressed by the 
Superfund program or the State's involuntary cleanup program.
    We have a rich industrial history in Ohio, and that 
resulted in thousands and thousands of these brownfield sites 
that were sitting idle, contaminated, and underused. So this 
program was designed to help those sites get cleaned up.
    The voluntary cleanup program authorized anyone to clean up 
a dirty site and receive a legal release in exchange for it. 
Three key components of the program are rules describing clear 
processes in cleanup standards that are protective and based on 
the plan's land use; reliance on certified consultants and 
laboratories to oversee the cleanup in partnership with Ohio 
EPA, while Ohio EPA focused its oversight on developing the 
cleanup standards in auditing cleanups after they were 
completed; creation of incentives in the form of tax abatements 
and, at the time, low-interest loans.
    Today volunteers have used this program to clean up and 
request a legal release at 484 properties, covering more than 
9,251 acres. Those, however, are just the tip of cleanups in 
Ohio, and there is an iceberg of cleanup effects that is 
underneath it. The program was designed intentionally so that 
users did not have to request a legal release if it was not 
necessary for the redevelopment project. Certified consultants 
tell us that for every one project that they work on that seeks 
a legal release, there are five times as many they are working 
on where no legal release is sought, but the cleanup standards 
for the program are used for the private property transaction.
    While the statute's policy maximizes privatization and 
flexibility, it can sometimes create a misperception that only 
those 484 cleanup projects are a result of our cleanup program. 
In actuality, a more accurate number is probably about 2,500 
cleanup projects have resulted from the program.
    As the program matured, stakeholders asked for additional 
liability relief. In 2001, Ohio EPA finalized a Superfund 
memorandum of agreement with U.S. EPA, providing additional 
assurance to Ohio's volunteers that EPA was satisfied with our 
program and that they would not ask for additional cleanup for 
projects that are cleaned up in our program.
    Additionally, the State's statute was amended several times 
to expand eligibility of the program so more different kinds of 
sites could use the program to limit the liability.
    In late 1990, CERCLA was amended to provide Federal 
funding, and Ohio uses this funding in four ways. First, we 
provide services free of charge to local governments. Since 
2002, Ohio EPA has assisted 104 communities in 57 counties by 
completing 81 phase I assessments; 23 certified asbestos 
inspections; and 86 phase II sampling events.
    We also provide regional workshops for local economic 
development officials and provide them information about all 
the financial tools that are available to local governments. We 
also perform training for our certified environmental 
consultants, where we inform them of changes in the program and 
seek their input on improvements to the program.
    Finally, we provide free technical assistance to 60 to 80 
communities each year conducting brownfield cleanups. This is a 
very popular tool, especially for our small and medium-sized 
communities. We used CERCLA 104(k) brownfield revitalization 
for our local governments. This has been available since 2002. 
There have been 128 awards settling approximately $55.4 
million, and this is very essential to our local communities to 
revitalize their urban cores. They use it for planning, 
assessments, and cleanup of brownfields.
    Our State funding programs for brownfields started in the 
early 2000s. Since then, the State has provided $417 million to 
assess or clean up 409 brownfield projects. This has leveraged 
nearly $4 billion in private investments. Ohio's economic 
development partner Jobs-Ohio provides $45 million per year for 
assessment or cleanup where the projects create or retain jobs. 
Ohio EPA has also invested nearly $500,000 of our own budget to 
perform phase I for local communities. This fills a gap because 
those are projects that aren't eligible for other Federal 
funding.
    Ohio has benefited greatly from the funding available for 
both CERCLA and State law. Thank you for the funding that you 
have given to U.S. EPA to pass along to us. As Ohio's economy 
continues to grow today, new businesses are still interested in 
locating in brownfields. Ohio's cleanup program, State funding, 
and Federal funding are keystones to the economic growth and 
revitalization of Ohio.
    Thanks, again, for inviting me here to extol the virtues of 
our cleanup programs in Ohio, and I will answer any questions 
later.
    Mr. Gibbs. Thank you.
    Our next witness is the Honorable Christian Bollwage, he is 
the mayor of the city of Elizabeth, New Jersey.
    The floor is yours.
    Mr. Bollwage. Thank you very much, Mr. Chairman and members 
of the committee for holding this most important hearing. I 
have been the mayor since 1993. I have testified here in 
Congress both before Senate and congressional committees on 
brownfields in 1994 to 2001 when President George Bush signed 
the brownfield legislation in Conshohocken, Pennsylvania.
    Mr. Chairman, brownfields legislation has made it really 
possible for the private sector to work with municipal 
governments and invest in our cities. We all know the history 
of brownfield legislation, and it is part of my testimony, but 
I am not going to go through that. I would just like to 
highlight one in Elizabeth and then talk about some things 
where the mayors of this country think we can make the 
legislation a little bit better.
    The Jersey Gardens Mall in our city was built on a former 
166-acre landfill. This partnership between the county, and the 
State, and the Federal level of the Government all started with 
a brownfield assessment grant in the 1990s. The conversion of 
this former eyesore into a shopping center had numerous 
positive effects, up to 5,000 jobs, not only the people who 
work there but construction jobs; took a health hazard away 
from our city; continues to flourish with business up 10 
percent; visits are up 37 percent. The Jersey Gardens is 
adjacent to Newark airport. It has now been renamed The Mills 
and recently announced a 411,000-square-foot expansion on top 
of the existing 2 million square feet that is there. We work 
with Union County College. We have a retail skill center, a 
workforce investment center, provides job placement, soft skill 
training. We work with We Are One New Jersey, an initiative 
spearheaded by the county of Union. It also has a 4.8-megawatt 
sun-powered rooftop solar system, which is among the largest 
rooftop systems in North America. That broke ground in 2011, 
and it started producing power in February of 2012.
    Some ways that the mayors and the U.S. Conference of Mayors 
think we can improve this program because it has such a proven 
track record. The GAO has mentioned that there are 400,000 to 
600,000 brownfield sites throughout the U.S. The one Member 
asked a question about the rural areas. The U.S. Conference of 
Mayors did a study years ago that shows there is at least 10 
brownfield sites in every congressional district throughout 
this entire Nation. We would suggest that there is full funding 
of the Brownfields Program, that the EPA only funds, as the 
Assistant Administrator said, about 30 percent of the 
applications. We would ask that the previously authorized 
levels of $250 million is fully funded, but we also ask that 
this committee address higher funding levels. We recognize 
budgets are tight.
    Creation of the multipurpose grant, the Assistant 
Administrator also spoke of that. Many cities could use the 
ability to assess a number of properties and provide cleanup 
grants and loans depending on which sites are chosen for 
redevelopment. It hinders the opportunity if a city has to 
apply for a grant, wait 6 months to see if they will get 
funding. The developer, the partner, could walk away in that 
period of time. The Conference of Mayors would like to see the 
establishment of this type of grant, and especially 
municipalities who have a proven track record of fully 
utilizing their brownfield money.
    Increase the cleanup grant amounts: Many of the easy 
brownfield sites have been developed, especially in our city. 
We developed some gas stations that may have been easy to 
develop. The brownfields economic development that occurred at 
the mall, just south of Newark airport, was something in 
retrospect that the joint effort, financially, but there was a 
market for it. So now we have the tougher ones. We would like 
to see an increase in the funding ceiling of the cleanup grants 
to be $1 million and, in some circumstances, to be $2 million. 
This could give additional resources to conduct cleanup at more 
contaminated sites and bring those properties back to 
productive use.
    Allow some reasonable administrative costs: Should be 
allowed to use a small portion of the grant to cover reasonable 
administrative costs.
    Clarify the eligibility of publicly owned sites acquired 
before 2002: We believe that as long as local governments do 
not cause or contribute to the contamination of the property 
but just happened to own the property before the law was 
enacted, they should be allowed to apply for EPA funding for 
that property.
    It took Congress 9 years to pass the original law, Mr. 
Chairman. I know; I testified here for 9 years, so I know how 
long it took. It has been an extremely productive piece of 
legislation. We can work together to remove barriers to the 
local and State governments by addressing some of the mothball 
sites to the CERCLA liability that the earlier speaker just 
highlighted how it worked in her State.
    In closing, Mr. Chairman, I would like to thank the 
subcommittee for having me testify. I have submitted written 
testimony and will be available to answer questions.
    Thank you for your time, Mr. Chairman.
    Mr. Gibbs. Thank you for your input and all your time 
before the committee. This program is making it work.
    Our next witness is Ms. Kelley Race. She is the Brownfields 
Program manager for TRC Companies. Welcome.
    Ms. Race. Good morning, Congressman Gibbs and honorable 
members of the Water Resources and Environment Subcommittee. 
Thank you for allowing me to testify about this very important 
program.
    As you mentioned, I am a Brownfields Program manager. I 
have 25-plus years of experience, and I have a bachelor's and 
master's in geology, and I have worked on contaminated sites 
for most of my entire career.
    Many of the EPA-funded Brownfields Programs that we work on 
are located in the Northeast as well as the Midwest and 
California. We are passionate about the redevelopment of 
brownfields and the impact brownfields have had on communities. 
We have seen firsthand how a single site----
    Mr. Gibbs. Ms. Race, could you pull the mic a little bit 
closer? We are having trouble back here, pull the box, just 
yank it.
    Ms. Race. How is that?
    Mr. Gibbs. Yes, thank you.
    Ms. Race. We have seen firsthand how a single site using a 
few thousand EPA assessment dollars can be transformed into a 
community icon and how a portfolio of sites can actually result 
in the rebirth of a downtown, infusing millions of leveraged 
dollars into a community.
    My testimony today will highlight EPA brownfields 
successes, highlight some challenges, and offer some 
considerations that we think would help make the program more 
versatile.
    We all know EPA brownfields funding has led to many 
successful cleanups and redevelopment and has leveraged 
millions of dollars in private investment. Obviously, an $8 
million to $10 million decrease in funding for assessment, 
cleanup, and revolving loan funds has resulted in fewer 
grantees being awarded. But, actually, let me back up and ask, 
what are brownfields to communities? Brownfields are 
opportunities. They are the funding that is often the seed 
money to different organizations to assess, clean up, and 
sustainably reuse a property. Many of these eligible entities 
have limited resources to address and facilitate redevelopment 
of brownfields as communities are tasked with doing more with 
less.
    A couple examples that I would like to actually highlight 
on some creative successes that we have seen over the hundreds 
of sites that we have worked on across the country include one 
from Massachusetts, which is a transit-oriented development. 
This site was initiated with a $3,000 Phase I Site Assessment 
and a Phase II Site Investigation. This project actually 
facilitated over $100 million in private developer interest in 
the area. The project created construction of a pedestrian-
friendly parking garage, linking it with a former shoe 
manufacturing mill, and renovated new housing, creating over 
340 housing units, 75 of which are set aside for low-income 
families and individuals.
    The second example is the reuse of a former textile mill in 
Sanford, Maine. The former mill once produced armed service 
uniforms. From a $4,000 EPA brownfields assessment grant, over 
$60 million of investment was secured, resulting in 274 
construction jobs, 36 affordable housing units and retail and 
commercial businesses.
    The third example, a 100-acre former steel facility in 
Jefferson County, Ohio. From this--Jefferson County received a 
$1 million Assessment Coalition Grant. Based on that coalition 
grant, they were able to leverage an additional $6.5 million in 
State and private brownfields funding, returning 9 vacant 
properties to beneficial reuse and creating over 150 new jobs.
    As someone who assists communities in preparing 
applications, the application process can be challenging but 
also rewarding when a community must think outside the box on 
how they will utilize the funds and turn a story of despair 
into sustainable reuse and opportunity. There are so many 
worthy projects and communities out there, but the EPA 
application process is extremely competitive.
    Now for some of the challenges. The FY 2015 Brownfields 
Guidance for Assessment: EPA allocated approximately 50 percent 
of the total amount of funding available under the announcement 
was to be used for grants for new applicants. While dedicating 
50 percent of funding to new applicants creates a base of 
eligible new entities, it also limits the funding available for 
existing grantees, who may have a long established program, 
spent a considerable amount of time creating an inventory and 
conducting phase I and phase II's to ready those properties for 
redevelopment. Existing grantees who may have submitted 
multiple applications only to lose again may result in a 
disincentive to compete, leaving a program with a large 
inventory of potential sites stagnant.
    With regard to petroleum assessment funding, EPA must 
expend 25 percent of the amount appropriated for brownfields 
grants on sites contaminated with petroleum. The brownfields 
law outlines specific criteria by which petroleum sites may be 
eligible for brownfields grants if EPA funding or the State 
makes a petroleum eligibility. Because of the eligibility 
determinations, petroleum brownfield funding is harder for 
grantees to utilize and is more complicated, as it is a case-
by-case State agency determination. Therefore, the brownfields 
petroleum funding may actually be sitting on the sidelines 
stranded.
    In summary, the EPA Brownfields Program works, but we 
believe there may be considerations in the brownfields funding 
that provide versatility and flexibility to the program.
    I would like to thank the subcommittee for my being able to 
provide testimony, and I am available to answer questions.
    Mr. Gibbs. Thank you.
    The next witness is Mr. Paul Gruber, on behalf of the 
National Ground Water Association.
    Welcome.
    Mr. Gruber. Thank you, Chairman Gibbs, Ranking Member 
Napolitano, and members of the subcommittee, thanks for the 
opportunity to testify today.
    My name is Paul Gruber, I am testifying on behalf of the 
National Ground Water Association, the trade association and 
professional society of 11,000 members in every State 
represented here. My testimony will address the importance of 
used science-based decisionmaking for the investigation, 
remediation, and redevelopment of brownfields sites, as well as 
highlight the importance of preserving and improving the 
availability of our Nation's groundwater resources.
    The Brownfields Revitalization Act is an excellent example 
of the right law for the right reasons. Brownfields Programs 
are not only critical for environmental improvement and 
protection of public health, but they are vehicles to provide 
economic development, providing employment opportunity for 
thousands of Americans in both urban and rural areas.
    On a typical brownfields project, our members support all 
stages of the investigation and cleanup process. NGWA 
professionals evaluate various remediation alternatives, 
employing a variety of sophisticated tools. These tools, such 
as groundwater models, can cost-effectively assess the public 
health impacts of proposed remediation technologies and 
optimize cleanup selections, ultimately turning the site into a 
springboard for community revitalization.
    Often brownfields redevelopment success stories in urban 
areas receive the most publicity. I want to be sure to 
emphasize the need to promote the success of rural brownfields 
development. Potential brownfield sites in rural areas include 
a variety of legacy industrial operations that previously led 
to economic development in the area. Examples include 
manufactured gas plants, fertilizer plants, tanneries, and 
small businesses, like gas stations and dry cleaners, among 
others.
    These rural brownfields sites affect soil, surface, and 
groundwater quality and availability. As most rural residents 
rely on individual wells or community water systems for potable 
water supply, these resource impacts can be more critical than 
those in urban areas. In rural areas, groundwater quality 
impacts can be more widespread, and hence, cleanup costs can be 
cost-prohibitive while having a broader local community impact.
    In rural areas, the presence of ample green space often 
minimizes the perceived need to clean up and restore a 
brownfields site. Rather than an either/or scenario, 
brownfields and green spaces should be viewed in tandem. By 
restoring rural brownfields sites, communities can preserve 
natural existing systems. The preservation of these systems 
improves and protects surface and groundwater quality and 
quantity; maintains important groundwater recharge systems; and 
improves stormwater management opportunities.
    As many communities currently experienced unprecedented 
drought conditions, by improving and preserving these natural 
systems in greenfield areas, local communities are now more 
resilient and sustainable.
    The EPA Brownfields Program is a well-crafted and effective 
program. As the subcommittee considers reauthorization of the 
program, NGWA would like to offer the following observations 
and recommendations. Congress should consider brownfield grant 
incentives that not only limit liability but also encourages 
cleanup and redevelopment of brownfield sites rather than 
greenfield sites; why incur the potential liability with 
brownfields sites where, in rural areas, ample green space is 
available for development, unless the right incentives are in 
place.
    The committee should consider increasing incentives for 
rural applicants by directing EPA to prioritize funds for rural 
communities where local groundwater supplies are impacted. 
Public-private partnerships are effective vehicles to leverage 
investments and create economic benefits for all stakeholders 
where single-entity investment may not be feasible, encouraging 
beneficial reuse of brownfield sites and providing liability 
limits while managing long-term cleanup.
    Lastly, Congress should urge EPA to continue its research 
focus on development of new technologies and methods of site 
remediation that integrates combined remedies, integrating risk 
assessment of future land uses when establishing cleanup goals. 
Since its inception in 1995, EPA's Brownfields Program has 
changed the way we approach development and reutilization of 
contaminated sites. It has provided a vehicle to investigate 
and clean up abandoned sites without encouraging development in 
greenfield locations. Brownfield grants and cleanups focused in 
rural areas can be instrumental in reinvigorating economic 
activity while increasing the value of ecosystem services of 
undisturbed natural systems.
    With over 400,000 brownfields sites across the country, it 
is likely we probably all live or work near one. The work 
needed to clean up these sites is far from complete, which is 
why reauthorizing this program is critical. I would like to 
thank the subcommittee for its attention, and I look forward to 
your questions.
    Mr. Gibbs. Thank you.
    Our next witness is Ms. Vernice Miller-Travis. She is the 
vice chair of the Maryland Commission on Environmental Justice 
and Sustainable Communities. She is a member of the National 
Environmental Justice Advisory Council to the EPA.
    Welcome, Ms. Miller-Travis.
    Ms. Miller-Travis. Thank you, Chairman Gibbs and Ranking 
Member Napolitano and all the members of the committee for this 
hearing today. I have invested the last 22 years of my life in 
bringing this process forward and brownfields and helping to 
draft some of the language in the implementing law. I served on 
the All Appropriate Inquiry Federal Advisory Committee that 
wrote the implementing language for the Small Business 
Liability Relief and Brownfields Redevelopment Act. I was there 
at ground zero, as they say, when EPA began this process. And 
immediately I saw the opportunity to bring real, long-term 
reinvestment to some of the most distressed parts of our 
country, which were also the places that had some of the 
biggest and largest and longest impacted brownfields sites 
across the country. So when EPA announced this process, I 
jumped at the chance to be a partner with them to really bring 
this process to life.
    One of the things that EPA did early on through its 
National Environmental Justice Advisory Council and the 
Subcommittee on Waste and Facility Siting, which I served as 
the cochair of from 1997 to 2001, was to host a series of 
public dialogues on urban revitalization and brownfields, 
envisioning healthy and sustainable communities, in 1995. The 
public dialogues were held in five cities: Boston; 
Philadelphia; Detroit; Oakland, California; and Atlanta, 
Georgia. The public dialogues were intended to provide an 
opportunity for environmental justice advocates and residents 
of environmentally impacted communities where brownfield sites 
proliferated to offer their input and perspective regarding the 
development of EPA's brownfields economic redevelopment 
initiative. In my written testimony, I included a link to the 
report; here is my dog-eared copy that I still lecture from and 
talk about 19 years later because it is still very relevant.
    Those dialogues led to the publication of this report, and 
many concerns were raised by communities during that process, 
including whether or not the brownfields issue was a 
smokescreen for gutting cleanup standards, environmental 
regulations, and liability concerns because, heretofore, when 
people talked about brownfields and recapturing industrial and 
commercial vacant spaces, they were talking about the real 
estate transactions but not talking about the economic 
revitalization that could come to low-income and distressed 
communities who live near and bore the burden of the 
environmental contamination and the perceived disinvestment in 
their communities, which was driven largely by the loss of 
industrial and commercial activities in those communities. So 
this was a very personal issue for a lot of communities around 
the country who pin their hopes on revitalization and new 
economic activity on the success of this program.
    So they have a tremendous amount invested in the 
Brownfields Program.
    Much of the national conversation today regarding 
environmental protection and improving public health, job 
creation to address high levels of unemployment and 
underemployment, reducing growing inequality and poverty rates, 
and how to spur community revitalization and create public-
private partnerships to undertake these decades-old problems 
were tackled in this report.
    The success of the program today has been just 
extraordinary; we have heard lots today from Administrator 
Stanislaus and others, but by any objective measure, after 20 
years of brownfields redevelopment, there is much to report in 
terms of success. For example, the Brownfields Job Training 
Program has trained over 14,100 individuals to become certified 
in a range of site remediation skills. The Brownfield Jobs 
Training Program graduates include many unemployed and 
underemployed veterans, at-risk young adults, and 50 percent of 
the graduates are ex-offenders. Seventy percent of the 
Brownfields Job Training graduates have been placed in living 
wage jobs. The program's placement rate is to be highly 
commended, especially when one considers the target population 
of trainees.
    Other successes of the program to date include hundreds of 
examples of transformative brownfields redevelopment projects, 
including the epic struggle to clean up brownfields sites and 
restore the Los Angeles River. Atlantic Station, where a former 
steel mill has been transferred into a brandnew, thriving, 
high-end community in Atlanta. It is really breathtaking if you 
haven't seen it. The Spicket River Revitalization Project, 
which is a partnership with Groundwork USA, where a once dying 
mill town has been revived in Lawrence, Massachusetts. And the 
Florida Brownfields Association Partnership with environmental 
justice and other medically underserved communities like the 
Eastside community of Jacksonville, Florida, by developing 
brownfields sites into healthcare facilities.
    But there is a downside to successful brownfields 
redevelopment. Of all the promise I envisioned for distressed 
serving communities via successful brownfields redevelopment, I 
did not envision a large-scale gentrification and displacement 
of longstanding communities of color that brownfields 
redevelopment projects have spawned in some places. For 
example, Bayview-Hunters Point in San Francisco, The Dudley 
Street community in Roxbury, Massachusetts; here in the 
District of Columbia, the Southwest Waterfront; and my own 
beloved hometown of West Harlem in New York City where Columbia 
University, my alma mater, is building a new campus that will 
occupy more square footage than the former World Trade Center.
    A lot of people in public housing, and low-income and 
affordable housing are being displaced by a lot of these 
successful projects. That was not what EPA envisioned, but 
nevertheless, it is an unintended consequence, so we need to 
balance the economic revitalization that is happening and 
driven by brownfields redevelopment with the needs to make sure 
that that revitalization is broad-based.
    We must refocus our efforts if the hope of successful 
brownfields redevelopment is to bring broad-based economic 
opportunity and community revitalization to all. The last thing 
I would say is the program needs to be fully funded. EPA's 
brownfields redevelopment initiative has been catalytic in 
transforming economic opportunity in large cities, small 
cities, tribal communities, you name it, the Brownfields 
Program has been there, and we want to see that revitalization 
happen everywhere, and your appropriation is what makes that 
program happen. I strongly recommend that you fully fund it. 
And please, under no circumstances, diminish the funding that 
goes to the Brownfields Program. Thank you so very much.
    Mr. Gibbs. Thank you and that might be more talk to the 
appropriators. Ms. Hafner, I see in your testimony, you cite an 
example of a program in Louisville, Ohio, at Chesapeake Energy. 
I want you to know that is in my district, I have been there. 
Great work. I want to recognize that you put that in there. 
That is actually my district.
    I do want to ask you, Ms. Hafner, in your testimony, you 
talked about how the State of Ohio handles liability aspects in 
its Brownfields Program. Can you explain how the Ohio example 
could be replicated in the Federal Brownfields law?
    Ms. Hafner. In terms of the liability?
    Mr. Gibbs. Yes. I am really concerned about liability 
aspects. What have you done in Ohio that maybe could be helpful 
in the Federal legislation?
    Ms. Hafner. Well, notwithstanding one of the most important 
things of the Brownfields Program, in my view, is that the 
State programs are uniquely designed for each and every State. 
So adopting some of the things that we did in Ohio and putting 
them on a Federal level may not maintain that flexibility. 
However, individual liability tweaks along the way may provide 
some additional assistance to the volunteers and folks who are 
cleaning up the sites.
    Mr. Gibbs. Ms. Race, do you have a comment on the liability 
aspects of your examples, should we be looking at it as 
concerns?
    Ms. Race. Well, I would just add that I do agree that it is 
a State-by-State designation. There are several States, 
Pennsylvania is actually an example where Act III has actually 
reduced some of the liabilities and they have actually used 
wording to get their hands around that liability. I think with 
the liability protection, that is where the brownfields, the 
phase I's, and due diligence is really important, because that 
actually gives you the AAI, All Appropriate Inquiry, it gives 
you the baseline of some of the liability protection initially.
    Mr. Gibbs. Mr. Gruber, I am a little intrigued. You talked 
about the groundwater cleanup, aquifers and stuff. Where it is 
feasible to do cleanup, what tools and technologies are 
available to ensure that the contamination doesn't spread, can 
you just elaborate on what's happening on that?
    Mr. Gruber. So there is a variety of different tools and 
technologies, most effective and probably used most commonly 
are groundwater pump and treat systems; there are barriers that 
can be placed inground that can prevent the spread of 
groundwater contamination, all associated with different levels 
of cost. So one of the roles that professionals like myself and 
Ms. Race get involved with is trying to optimize the 
groundwater treatment technology to stem the spread of 
contamination, and to effectively treat the groundwater systems 
and prevent it from spreading.
    Mr. Gibbs. I really appreciate your comments regarding the 
rural areas and green spaces. You are absolutely right, there 
are lots of sites in rural areas, like abandoned fertilizer 
facilities, whatever, and I think that is--I am glad you 
mentioned that because I think there is an important need 
there, and, of course, it really ties the importance to the 
groundwater because in the rural areas, that is where we get 
our water, in most cases, so it is important.
    Mr. Gruber. That is correct. I think there is a real impact 
in rural areas associated with brownfields sites and propensity 
for developers to look for new greenfield locations. 
Particularly in areas, in rural areas where community water 
systems don't have a lot of funds available to treat 
groundwater, they are pumping it directly out of the ground 
with minimal treatment. The effort to encourage redevelopment 
of brownfield sites as opposed to new greenfields is critically 
important to preserving community resources.
    Mr. Gibbs. What is your experience with public-private 
partnership investments in brownfields sites?
    Mr. Gruber. Well, I think everybody has addressed the 
issues associated with liability limits. From a public 
investment perspective, obviously, liability limits are 
different than when private parties get involved. I would ask, 
perhaps, the mayor to address some of those issues, but the 
opportunity to increase private-sector investment in public 
projects by limiting liability associated with the long-term 
development of these sites, would go a long way towards 
accelerating the pace of brownfields redevelopment.
    Mr. Gibbs. Mayor, the question, what recommendations do you 
have to improve the Small Business Liability Relief and 
Brownfields Revitalization Act on the liability issue? What is 
your take on that, and what recommendations might you have to 
make that better to help incentivize people?
    Mr. Bollwage. I believe it is in the testimony about 
removing the barriers on the mothball sites and the CERCLA 
liability and the Government and the brownfields defined by 
section 101-39, if it did not cause or contribute to the 
contamination of the property, and exercises due care with 
regard to any known contamination to site. We also, in our 
testimony, have attached recommendations on exact language that 
we submitted in our written testimony, Mr. Chairman.
    Mr. Gibbs. Thank you. Mrs. Napolitano.
    Mrs. Napolitano. Oh, definitely, sir. Thank you. In fact, I 
could do the whole 1 hour on this. Ms. Miller-Travis, your 
statement about investment in underserved communities, how 
would we incentivize the investors to be able to go to those 
areas? The market forces are great because they will go to 
where they think they are going to make the best investment, 
how would you incentivize them to go into lower income 
communities?
    Ms. Miller-Travis. So there has been a lot of conversation 
about approaching the Department of the Treasury to explore 
opportunities to encourage greater use of new market tax 
credits, and the low-income housing tax credits to enable those 
who are doing brownfields redevelopment to tap into those tax 
credit programs, so that they can spur investment in terms of 
new markets as well as low-income housing.
    Mrs. Napolitano. Is that anywhere in writing? I am sorry, I 
don't want to run out of time.
    Ms. Miller-Travis. Sure.
    Mrs. Napolitano. In reference to HUD, EPA, Department of--
--
    Ms. Miller-Travis. Energy.
    Mrs. Napolitano [continuing]. Energy, DOT, Office of 
Economic Adjustments, Department of Defense, Community Health 
Initiative under CDC [Centers for Disease Control and 
Prevention], all those areas, add Treasury to it. Why are we 
not getting them all together and saying we need to address 
this as a whole rather than everybody doing their own thing and 
spreading those funds out in different areas?
    Ms. Miller-Travis. It would be great if the new 
legislation, or reauthorized legislation, could direct EPA and 
the Federal family to do exactly that, because local 
governments, local community development organizations, State 
agencies are having to shop all of those entities.
    Mrs. Napolitano. It would take also those entities, the 
counties and the cities to be able to work with, including the 
Governors organizations.
    Ms. Miller-Travis. Yes.
    Mrs. Napolitano. Now how do we then look at prioritization 
of those areas, as Mr. Gruber was saying, groundwater 
contamination, because we are having continuous drought cycles. 
That is not going to go away. Are we not looking at how do we 
protect our water? How do we clean it up? How do we help the 
communities be able to revitalize that source of critical 
water? Water is money, there is no investment if water isn't 
there for business.
    Ms. Miller-Travis. Absolutely. So there is also a 
recommendation to encourage EPA to access its Clean Water State 
Revolving Fund, which allows States to then push money down, 
Federal money down to local governments and tribal governments 
to really do new investment in infrastructure for clean water. 
We would like to see those--that program, that revolving loan 
fund be accessed and merged, in a sense, with access to the 
brownfields revolving loan.
    Mrs. Napolitano. I would love to see your recommendations 
to the subcommittee.
    Ms. Miller-Travis. It is in my testimony, ma'am.
    Mrs. Napolitano. Right, I know. But that is a 
recommendation, because I will be looking a little further on 
this one. All of you, when was the last time that EPA 
utilized--how would I say, cost of living. The year 2001 was 
when the maximum amounts were set. What do you think that 
affects the ability to be able it use those dollars in today's 
dollars? Anybody?
    Ms. Miller-Travis. So if I could start, I actually disagree 
a little bit with Administrator Stanislaus, I think the grant 
amounts do need to go up to $300,000, but that can only happen 
if the appropriation for the program is increased somewhat. But 
I do think it is time to increase the amount of money in those 
assessment----
    Mrs. Napolitano. Yeah, it was just $200,000 was set for 
2001. We are in 2014, 13 years later, and we are still at that 
amount.
    Ms. Miller-Travis. Well, actually $200,000 was set in 1995 
when they first launched the program.
    Mrs. Napolitano. You understand where I am going, is we 
need to increase the funding based on today's dollars.
    And let's see, to Mr. Gruber, I very much am interested in 
how you look at the rural applicant, because you have 
fertilizer and all kinds of other insecticides that go into the 
ground and eventually into the water table. How do we help be 
able to identify that, especially when there is no funding in 
those rural areas by small communities?
    Mr. Gruber. So I think EPA does have an outreach program, a 
technical assistance program to provide support to communities 
to develop brownfield grants. I think we need to do as much as 
we can to encourage EPA to step up on those activities, because 
often in rural communities, they may not have the technical 
resources or the financial resources to address the development 
of the grants, hire engineers like myself, or Ms. Race. So I 
think anything you can do to increase opportunities for EPA to 
broaden their outreach to rural communities, where many of 
these brownfield sites are located, would be very instrumental 
in making the program more successful.
    Ms. Race. I was going to add to that, I think one of the 
things that is being looked at now are technical assistance 
grants. For a small amount of dollars, maybe in the $7,000 to 
$10,000 range, those type of funds would be very instrumental 
to these small communities and these small entities that really 
can't afford to hire a big giant consultant, or even actually 
facilitate something like that.
    Mrs. Napolitano. Understood, but don't forget, right now 
with economic stress that many of the communities face, they 
may not even be able to match any funding. Why are we not 
looking at the Treasury incentivizing those areas to be able to 
put those properties back on the tax roll?
    Ms. Race. I think it would be a great idea.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman, thank you to the 
witnesses. Although I came in late, I was reading your 
testimony while questions were being asked at another hearing 
that I was a part of. I do appreciate what you are doing here 
today.
    Mr. Gruber, I do want to put a specific emphasis on 
offering you my appreciation, because the emphasis that you 
make in your testimony about the importance of brownfields 
development in the projects in rural America that I know my 
colleague just alluded to, I want to commend you on that.
    As you note, the impact of soil surface and groundwater 
contamination in rural areas can have serious implications for 
potable water supplies and addressing these contaminations, I 
am sure has been discussed before I got here, it can be very 
cost prohibitive to some of the smaller communities that I 
serve in Illinois right in rural--the middle of rural America.
    Earlier this year, I joined two of my colleagues from 
Illinois, John Shimkus and Mike Bost, in sending a letter of 
support to the EPA for a brownfield assessment grant 
application submitted by Madison County, Illinois. I was 
subsequently pleased to learn that Madison County was actually 
awarded two brownfield grants; one to assess a hazardous 
substance site, and one to assess a site contaminated by 
petroleum. I look forward to working with Madison County and 
the other stakeholders as these projects move forward, and want 
to say thank you to those who made those decisions.
    Mr. Gruber, I know it was alluded to in the last question 
about how do we help ensure that rural America is not left 
behind when it comes to brownfield development projects. Is 
there any other--is there any advice that you would give us to 
be able to help make sure that that does not happen?
    Mr. Gruber. I think I addressed a little bit of it when I 
talked about EPA's ability to provide outreach and support to 
rural communities for the development of brownfield grants. I 
think Ms. Miller-Travis also addressed some critical funding 
issues. State grants under the Clean Water Act have been 
significantly diminished over the last 20 years. Anything 
Congress can do to increase appropriations and broaden the 
funding support under the Clean Water Act to support local 
communities, particularly in rural areas, which are often 
excluded from Clean Water Act funding grants, would be a very 
important mechanism to improve environmental quality and 
availability of surface and groundwater quality in rural areas.
    Mr. Davis. Thank you, Mr. Gruber. I appreciate your 
comments. I, too, want to reprioritize how we spend money here 
in Washington. That is something that I hope all of my 
colleagues on both sides of the aisle want to continue to do. 
That is the only way that Congress and our legislative branch 
can actually regain the power of the purse that many of the 
witnesses that sit at your tables we see on a regular basis 
come in and talk about increased appropriations, the need for 
more money to actually put forth to solve some of the problems 
that we are even talking about here today. And I, too, agree.
    But both sides of the aisle have to make tough decisions 
how we actually spend the taxpayer dollars, and that is a 
debate that I look forward to having with all of my colleagues 
here. I guess I will open my last question quickly to the first 
one who wants to volunteer to answer it. Is it your experience 
the working relationship that State, local and private leaders 
have with administrators of the Brownfields Program at EPA has 
been positive? Is there any specific issue that you think could 
improve that communication or relationship? Who is first?
    Ms. Race. I will go first.
    Mr. Davis. Ms. Race.
    Ms. Race. I actually think the State programs and the 
region programs are very strong as far as community outreach. I 
do a lot of work in region 1 and region 3, I think there is a 
great partnership between those agencies, they do a great job 
in trying to get the word out there about what needs to be 
done. As far as more improvement, I think sometimes the States 
need to talk more with the regions themselves as far as making 
sure that everybody is on the same page with what they want to 
have as the outcome.
    Mr. Davis. Anybody else? I have 30 seconds.
    Ms. Miller-Travis. I would just say that I think EPA has 
gone to great lengths to try to decentralize the Brownfields 
Program to put brownfields coordinators in each of the regional 
offices to provide technical assistance, to provide counseling 
to States, to make it possible to do the letters of no further 
action so the States can give people a sense of comfort that 
they can go in and redevelop those sites and purchase them 
without getting tangled up into the CERCLA liability scheme.
    I think EPA has spent 20 years trying to figure out how to 
push this money out and down and give as much technical 
assistance as they can. If you are in Chicago, since you are 
from Illinois, if you can be there the first week of September 
for the brownfields conference, you will see thousands of 
people from all over the country who have been able to do 
extraordinary work because of the support of EPA.
    Mr. Davis. Well, let me see if that might be a possibility. 
I am 3\1/2\ hours south, hence the rural references. But I do 
very much appreciate the largest city in my State of Illinois. 
I would love to be able to be a part of that. Thank you. My 
time has expired.
    Mr. Gibbs. Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. Let me 
thank you and the ranking member for holding this hearing and 
let me thank all the witnesses. I have enjoyed hearing all of 
you and I think it is because I agree with everything you have 
said. It is gratifying to see that EPA has a program that gets 
so much positiveness. EPA is probably one of the most beat-up 
agencies around here when they are trying to protect the health 
of individuals. But I have strongly supported the brownfields 
legislation over the years, and feel that because it is such a 
public-private partnership, it has been very, very successful. 
And I would hope that all of you would advocate, because I 
think that there are more and more municipalities, and small 
municipalities as well, that would need to put brownfields into 
greenfields to create more of a tax base. When you create that 
tax base, we all profit from it because some of those taxes 
flow back in here where we need some money. So I would applaud 
you for working with the program. I don't have any particular 
questions other than what I would ask you might be illegal for 
you to answer, that is, how much do you advocate reauthorizing 
this program with more dollars?
    Thank you, Mr. Chairman, I won't insist that they answer 
that.
    Mr. Gibbs. I have just a couple of questions for the panel 
I would like to ask. Are there any categories of parties, like 
tenants or other non-owner parties that might occupy a user 
site who still fear exposure to the Superfund liability, even 
though they did not contribute to the contamination of 
brownfield sites? Does anybody want to respond? Is there still 
a fear out there?
    Mr. Gruber. I will take a crack at that. One of the issues 
I think that we have been advocating as an organization and an 
association is associated with vapor monitoring, and vapor 
intrusion in occupied buildings particularly, sites that are on 
or near petroleum locations because the volatile organic 
chemicals from petroleum spills can easily seep into buildings. 
People may not know that they could be exposed to harmful 
vapors from toxic gases. So I think the funding and the effort 
associated with vapor monitoring and vapor intrusion could be 
improved as part of the program to protect residents in 
buildings.
    Mr. Bollwage. Mr. Chairman, what we did with the Jersey 
Gardens Mall, which was built on a landfill, is we vented the 
methane and then created power from the methane for the mall. 
So the 200-and-some-odd stores that are in the Jersey Gardens 
plus all the people that go there, we don't really deal with 
the issue because of the proper ventilation.
    Mr. Gibbs. Ms. Race.
    Ms. Race. I would just add there are sites that I think 
some of the Federal programs have to talk to each other about. 
Some of the RCRA [Resource Conservation and Recovery Act] 
obligations are not the same as some of the brownfields. What I 
mean by that is there are entities out there that are 
interested in using brownfields money to redevelop a property, 
but because it has a RCRA designation, there are certain 
liability protections that they just can't get over because of 
the RCRA Superfund tie-ins with that.
    Mr. Gibbs. Ms. Race, you mentioned in your testimony about 
the 25-percent set-aside, and I mentioned petroleum. I 
mentioned that to the Administrator, and you heard his 
response. What is your take on how we should we modify that?
    Ms. Race. I am thrilled. I think there should--actually, 
either do away with it or have a much less percentage that has 
to go to petroleum. I can speak as one that knows a lot of 
grantees that have a lot of money sitting on the sidelines that 
they just cannot use.
    Mr. Gibbs. What would your take be on the applications? I 
think everybody is in agreement, we are making progress with 
these petroleum-abandoned tanks. You know, what percent would 
you guess might be in the application process now that actually 
would qualify for that set-aside?
    Ms. Race. I would rather see closer to 10 percent, not any 
more than 10 percent, because the State designation and a case-
by-case where the State actually makes that determination, a 
lot of States are requiring tax returns for a property owner 
before they can actually even assume that there is any 
viability----
    Mr. Gibbs. I know, you mention flexibility.
    Ms. Race. Yes.
    Mr. Gibbs. I am big for that, too. I think that obviously 
that was put in--it probably made a lot of sense because we--
like I said, there was a gas station in three of the four 
corners, most typically in urban areas.
    Mr. Gruber. If I might add to that.
    Mr. Gibbs. Yes.
    Mr. Gruber. Many States have leaking underground storage 
tank program funding mechanisms individually, so the 
opportunity to investigate and clean up underground storage 
tanks can come from other sources and not the Brownfields 
Program, so it is a way of leveraging other dollars and 
improving and increasing opportunities if you remove the 25-
percent requirement for funding for underground storage tanks 
under the Brownfields Program.
    Mr. Gibbs. Excellent point. Do you have any more questions?
    Mrs. Napolitano. No questions, but I certainly would want 
to ask all the panelists to forward any recommendations you 
might have that will help this committee, subcommittee, be able 
to understand some of the things that you are facing that we 
may not have in writing, especially issues like coordination 
between the agencies to be able to leverage. And then how do we 
reach out to the Conference of Mayors, the League of Cities, 
the Governors associations, to have them identify where the 
major issues are in economic development to be able to help us 
understand a little better how EPA can then look at maybe it's 
rural, to me, it is water runoff for contamination because of 
the drought issue, things that you see that might help us be 
able to better deal with this issue as the subcommittee, joint 
subcommittee on a bipartisan basis, because water and economic 
development is everybody's issue.
    Thank you, Mr. Chairman.
    Mr. Gibbs. I do have one more question since we do have a 
State administrator of a very successful program. Ms. Hafner, 
if you could name the most important aspect of your Brownfields 
Program's success, what would it be?
    Ms. Hafner. I think, at least in Ohio, and other folks have 
talked about it, so it is probably true in other States as 
well, but it's our collaboration with the stakeholders who are 
actually implementing the program, so the local governments, 
the consultants, the developers--we are truly partners with 
them in not only developing the statute and writing the rules, 
but also in implementing the program.
    It is a culture of working together, collaboratively. And 
so even the staff view this as part of their job to ask those 
folks first what do you need to make this program better. And 
so I think it is a little unique at Ohio EPA, and that, to me, 
is one of the most important factors to its success.
    Mr. Gibbs. Just a thought too, I am just curious, are there 
times when you have to work with, besides U.S. EPA, but another 
Federal agency, Army Corps of Engineers, Department of 
Transportation, can you elaborate if that is the case or not?
    Ms. Hafner. Right. Most of our partners are U.S. EPA and 
the local governments, but the Navy was interested in using the 
voluntary program to clean up the site in Ohio, and so far we 
have not gotten the Army Corps of Engineers to use some of the 
old defense sites in the voluntary program, but that would be 
of interest to us.
    Mr. Gibbs. OK. Thank you, thank you for all witnesses 
coming today, it has been very helpful to us and the written 
testimony, as we look towards working reauthorization of the 
Brownfields Revitalization Program. So thank you and that 
adjourns us here.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
 
 
</pre></body></html>
